     ADVISORY REPORT

     COSTS CLAIMED BY THE
      COMMONWEALTH OF
 PENNSYLVANIA FISH AND BOAT
 COMMISSION, UNDER FEDERAL
 AID GRANTS FROM THE U.S. FISH
  AND WILDLIFE SERVICE FROM
    JANUARY 1, 1996 THROUGH
       DECEMBER 31, 1997




NOVEMBER 2002   Report No. 2003-E-0002
                                                                          X-GR-FWS-0002-2003

                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240


                                                                               November 4, 2002

                                ADVISORY REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the Commonwealth of Pennsylvania Fish
           and Boat Commission, Under Federal Aid Grants from the U.S. Fish and Wildlife
           Service from January 1, 1996 through December 31, 1997 (No. 2003-E-0002)

                                       Introduction
      This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the Commonwealth of Pennsylvania Fish and Boat
Commission (Commission) under Federal Aid grants from the U.S. Fish and Wildlife Service
(FWS) for the period January 1, 1996 to December 31, 1997.

Background and Scope

       The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Acts) authorize FWS to
provide Federal assistance grants to the states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred
under the grants. Additionally, the Acts specify that state hunting and fishing license revenues
cannot to be used for any purpose other than the administration of the state’s fish and game
agencies. In addition, FWS also provides grants to the states under the Clean Vessel Act and the
Endangered Species Act.

       In February 1999, another audit agency initiated an audit of Federal Aid program grants
awarded by the FWS to the Commonwealth of Pennsylvania for the Commonwealth’s fiscal
years 1996 and 1997, which ended December 31, 1996 and 1997, respectively. The scope of its
audit work, as stated in its announcement letter to the Commission, was to evaluate (1) the
adequacy of the Commission’s accounting system as it relates to the accumulation of costs
charged to grants, (2) the adequacy and eligibility of the direct costs claimed by the Commission
under the Federal Aid grant agreements with FWS; (3) the adequacy and reliability of the
Commission’s fishing license fee collection and disbursement process; and (4) the adequacy of
the Commission’s purchasing system and related internal controls. The audit was also to include
an analysis of other issues considered sensitive and/or significant to FWS. The audit work at the
Commission covered claims totaling approximately $16.8 million on FWS grants that were open
during calendar years 1996 and 1997 (see Appendix 1).

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency, which expired on September 30, 2001. At the time of
expiration, final audit reports on several uncompleted audits had not been issued and the audits
were in various stages of the audit and reporting processes. The other audit agency indicated in a
September 25, 2001 memorandum that its supervisor and management had not reviewed the
working papers for the Pennsylvania audit to ensure that (1) sufficient, competent and relevant
evidence was obtained, (2) evidential matter contained in the working papers adequately
supported the audit findings in the report, and (3) sound auditing techniques and judgment were
used throughout the audit.

       On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Intra-Departmental Agreement and our conclusions presented in
the report are limited to findings substantiated by the working papers. We did not perform any
additional audit work of the Commission’s records, and the limited work performed under these
procedures does not constitute an audit by the OIG in accordance with Generally Accepted
Government Auditing Standards.

       Findings affecting Pennsylvania’s administration of the Federal Aid program are
presented in the body of the report and other management issues are presented in Appendix 2.

                               RESULTS OF REVIEW
        The results of our review of the audit agency’s working papers disclosed that the
Commission’s controls over purchasing, grant compliance, letter of credit drawdowns, and asset
management in effect during calendar years 1996 and 1997 were adequate for Federal Aid
participation. However, the working papers also showed that:


   •   Costs of $262,210 were questioned because they were incurred outside the period of the
       grants to which they were charged. However, there were sufficient excess costs claimed
       on the grants to offset the questioned costs.

   •   In-kind contributions totaling $220,197 were classified as unsupported because
       documentation to substantiate the costs could not be located.

                                                2
   •   Program income of $7,572 was not credited against grant costs.

   •   The Commission did not have adequate physical control over its accounting records,
       which resulted in the inadvertent destruction of source documents that supported certain
       charges to Federal Aid grants.

A. Questioned Costs - $262,210

        The working papers indicated that the Commission claimed costs of $262,210 on the
wrong grant segment. The Commission claimed costs of $262,210 on calendar year 1996 Grant
No. F-74-D-6 that were incurred in calendar year 1995. Office of Management and Budget
(OMB) Circular A-87, Attachment A, Section C.1.d. states in part that to be allowable under
Federal awards, costs must conform to any limitations or exclusions set forth in the circular,
Federal laws, and terms and conditions of the Federal award. The Federal Aid grant agreements
stipulate a specific grant period. Therefore, we questioned the out-of-period costs charged to
Grant No. F-74-D-6. The working papers noted, however, that the Commission claimed
sufficient excess costs on the grant to offset the amount of questioned costs.

        The working papers show that the Commission stated that the out-of-period costs
occurred because it does not always reconcile expenditures with obligating documents until after
the grant segment is closed. As a result, costs applicable to prior periods are charged to the next
grant segment. The Commission needs to establish procedures to properly accrue expenditures
against the proper grant segment.

Recommendation

      We recommend that FWS resolve the $262,210 of out-of-period costs and ensure that the
Commission establishes procedures to properly accrue expenditures against the proper grant
segment.

Commission and U.S. Fish and Wildlife Service Responses

        The Commission stated that the nature and design of Grant No. F-74-D is to allow the
Commission management and engineering staff flexibility in renovating and upgrading fish
production facilities and for meeting environmental compliance issues. The staff has the
flexibility to begin work at various locations during the grant segment period and when
necessary, move or reschedule work under subsequent segments. The Commission also stated
that due to a delay in billing by the contractor, it was not able to pay for the services before the
90-day grant agreement reporting period had expired, and therefore, charged the cost to the next
segment. The Commission further stated that even though the questioned costs were associated
with work that was completed under segment 5, the costs should be reimbursable under segment
6 because of the structure of the grant and the fact that the activities performed were eligible
under both segments 5 and 6.




                                                 3
        The FWS stated that the Commission should properly accrue expenditures under the
proper grant segment, despite the Commission’s need for flexibility. The FWS further stated
that any future out-of-period costs would be addressed by amending the grant segment ending
date to allow any incurred costs to be correctly posted. The FWS added that the questioned costs
would be offset by excess allowable costs.

Office of Inspector General Comments

        The responses are adequate to resolve the recommendation. The FWS needs to ensure
that the Commission establishes procedures to accrue expenditures against the proper grant
segment.

B. Unsupported Costs - $220,197

        Certain Federal Aid grant records were inadvertently destroyed (see the discussion on the
Accounting System on page 6 for more details). As a result, the working papers indicate that the
auditors were not able to examine documents to substantiate the amount of time charged to the
grants for in-kind services. (The working papers did not take exception to the composite hourly
rates used for in-kind contributions.) As a result, we identified the entire $220,197 charged for
in-kind contributions as unsupported as detailed below:

                              Grant No.             1996       1997
                                F-30-D             $0         $801
                                F-57-R          1,763             0
                                F-61-T         37,391        62,036
                                F-69-E         65,814        52,392
                                 Total       $104,968      $115,229

       The Department provided additional documentation at the close out conference to
support the in-kind contributions claimed on Grant No. F-61-T. However, the documentation
provided was not sufficient to determine whether the indicated hours actually applied to the
grant.

Recommendation

       We recommend that the FWS resolve the $220,197 of unsupported in-kind costs.

Commission and U.S. Fish and Wildlife Service Responses

        The Commission stated that the volunteer log sheets used by the Commission are clearly
labeled with the name and social security number of each volunteer, and the work site name for
each work location. The Commission further stated that these log sheets are used only for work
effort associated with Grant No. F-61-T.


                                                4
        The FWS stated that as part of the Corrective Action Plan, it would review the time
sheets and yearly time summaries that were available to, but not reviewed by, the auditors.

Office of Inspector General Comments

        We agree with the action proposed by FWS and the recommendation will remain open
until resolution is reached as part of the Corrective Action Plan.

C. Program Income - $7,572

        The working papers show that the Commission reported that it had received program
income from one gas well and three rental housing properties during fiscal years 1996 and 1997.
 The Commission reported total program income of $12,500 on Grant Nos. F-30-D-33 ($10,000)
and F-30-D-34 ($2,500), which it deducted from the total costs of the grants. Our review of the
working papers disclosed that the Commission received gross income of $20,072 on Grant Nos.
F-30-D-33 ($10,400) and F-30-D-34 ($9,672), for a total increase of program income of $7,572.
The Commission’s Federal Aid Program Manager stated that the amounts reported were based
on an estimate that included the receipts from rental of housing net of housing expenses such as
the cost of repairs.

        The Code of Federal Regulations (43 CFR 12.65(b)) defines program income as gross
income received by the grantee directly generated by a grant supported activity or earned only as
a result of the grant agreement during the grant period. The regulations (43 CFR 12.65(c)) allow
for the deduction of the incidental cost for the generation of program income if authorized by
Federal regulations or the grant agreement. The Federal Aid Manual, Part 522, Chapter 1.14 B,
states that program income must be deducted from current costs, unless prior arrangements have
been made with the Regional Director. We found no evidence in the working papers that FWS
had authorized the deduction of incidental costs or provided supplemental guidance for
disposition of program income. Therefore, the $7,572 should be offset ($400 on Grant
No. F-30-D-33 and $7,172 on Grant No.F-30-D-34) against applicable grant costs to determine
net costs eligible for reimbursement.

Recommendation

       We recommend that FWS resolve the $7,572 of program income.

Commission and U.S. Fish and Wildlife Service Responses

       The Commission stated that it charged net program income to these grants and that net
income was derived by subtracting the costs incurred by the Commission to generate the gross
program income. The Commission further stated that these corresponding costs associated with
the generation of program income for this period were not charged to the grant.

       The FWS agreed with the finding and stated that there were sufficient excess allowable
costs on the grant segments involved to offset the questioned amount.



                                                5
Office of Inspector General Comments

        According to the working papers and Appendix 1, the Commission did not have excess
costs available for these grant segments. Therefore, the FWS should request an offset against the
appropriate grant segment.

D. Accounting System

        The working papers indicated that the Commission did not comply with the Code of
Federal Regulations (43 CFR Part 12, Subpart C, Uniform Administrative Requirements for
Grants and Cooperative Agreements to State and Local Governments) requirements for source
documentation, record retention, and internal controls. The regulations (43 CFR 12.60 (b)(6))
state that accounting records “must be supported by such source documentation as cancelled
checks, paid bills, payrolls, time and attendance records, contract and subgrant award
documents, etc.” However, for non-salary costs, the Commission could not locate source
documents such as original invoices because records identifying the source documents were
inadvertently destroyed.

        Expenditures of the Commonwealth of Pennsylvania are recorded and accumulated in the
statewide-automated accounting system, called the Integrated Central System. When an
expenditure is made, the original invoice is processed through the statewide system, assigned a
voucher transmittal (VT) number, and sent for payment. If the expenditure is for a Federal Aid
grant, a copy of the invoice is sent to the Commission’s Federal Aid Office for recording in the
Federal Aid subsidiary cost accounting system. The VT number on the invoice copy is the link
to the original source documents maintained for the statewide system. In response to a request
for records from the original auditors, the Director of the Commission’s Bureau of
Administration wrote in an August 10, 1999, letter:

              “In reference to your request, No. 2911, please be advised that it is
              our belief that the Federal Aid records in question were destroyed
              in error. They were forwarded on to our warehouse for storage in
              accordance with our standard operating procedures. Our best
              efforts in reconstructing subsequent events yields the probability
              that the boxes containing these data were placed in a holding area,
              and, due to space limitations, were moved to several temporary
              locations within the warehouse. At some juncture, they were
              inadvertently co-mingled with other records scheduled for
              destruction and destroyed along with those records.”

        Although the records destroyed were not the original documents, they were the link to the
original documents. Lacking the source documents, it was not possible to perform an adequate
examination of costs claimed as other direct costs. Of claimed other direct costs of $3,313,532,
records were available to review $1,043,228. The working papers make no representation as to
the propriety of other direct costs for which source documentation was not available for review.



                                                6
Recommendation

       We recommend that FWS ensure that the Commission institutes controls to ensure that
source documents are maintained and disposed of properly and that grant records are kept for the
appropriate amount of time.

Commission and U.S. Fish and Wildlife Service Responses

        The Commission stated that while the Federal Aid Section’s source documents were
inadvertently destroyed for the audit period, the Commission’s backup system provided most, if
not all of the requested documentation. The Commission stated that the other audit agency
indicated that the material supplied was sufficient to make a determination about grant
expenditures and the Commission’s accounting system. The Commission also stated that they
not only adhere to the records retention requirements of the Code of Federal Regulations, but
they adhere to the Commonwealth of Pennsylvania’s requirement that is more stringent. The
Commission further stated that because of the Commonwealth’s requirements, they were able to
provide adequate backup material to satisfy the auditor’s sampling questions.

        The FWS stated that they question whether the lack of source documents due to the
original records being inadvertently destroyed is a warranted records retention issue. The FWS
further stated that the Commission was able to provide the auditors with backup records for
most, if not all, of the documentation requested.

Office of Inspector General Comments

        We do not agree that the Commonwealth was able to provide most, if not all, of the
documents requested. According to the working papers, a Commission official reviewed cost
spreadsheets and was only able to locate VT numbers to identify the source documents for
several large expenditures that were posted individually. The official provided the VT numbers
for 13 items, which represented 31 percent of the combined other direct costs claimed on the
grants in calendar years 1996 and 1997. The Commission was not able to provide the VT link
for the remaining 69 percent of other direct costs, including the claim for all in-kind
contributions.

       The working papers concluded that because the Commonwealth’s Integrated Central
System only captures costs at the organizational unit level, the VT number noted on the cost
accounting copy of the documents was an important aspect in the audit trail. In addition, the
working papers concluded that the accounting system should be enhanced to ensure that there is
a backup link to the source documents in the event that cost accounting records are prematurely
destroyed in the future. Therefore, we consider the recommendation unresolved and we are
requesting that FWS reconsider its response.

E. Policies and Procedures

       The Code of Federal Regulations (43 CFR 12.60 (b)(3)) requires that “Effective control
and accountability must be maintained for all grant and subgrant cash, real and personal
property, and other assets.” The Commission, however, does not have written policies and
                                               7
procedures for reporting grant costs. Specifically, there is no documentation regarding the
procedures used or the accounting records generated from the cost accounting system. Written
documentation of processes and procedures ensure consistent accounting treatment.

Recommendation

       We recommend that FWS ensure that the Commission prepares written policies and
procedures for reporting grant costs.

Commission and U.S. Fish and Wildlife Service Comments

       Neither the Commission nor the FWS addressed this finding in their response.

Office of Inspector General Comments

       The Commission and FWS should provide a response to the recommendation.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by February 7, 2003, regarding disposition of the cost exceptions and other
issues identified in this report.

       This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, is not intended for, and should not be used by, anyone who is not cognizant of
the procedures that were applied and who agreed to the sufficiency of those procedures.

       If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator at (703) 487-8011.




                                                 8
                                                                           Appendix 1


           COMMONWEALTH OF PENNSYLVANIA
              FISH AND BOAT COMMISSION
       FINANCIAL SCHEDULE OF REVIEW COVERAGE
             CALENDAR YEARS 1996 AND 1997


    Grant          Grant         Amount          Questioned      Unsupported
   Number         Amount         Claimed           Costs            Costs

 F-30-D-33         $1,268,637     $1,211,956             $0                $0
 F-30-D-34          1,363,333      1,324,352              0               801
 F-57-R-19          4,316,000      3,653,772              0             1,763
 F-57-R-20          4,200,000      4,047,483              0                 0
 F-61-T-16            878,276      1,044,707              0            37,391*
 F-61-T-17          1,015,000      1,151,896              0            52,392*
 F-69-E-8             250,000        216,564              0            65,814
 F-69-E-9             314,000        381,672              0            62,036*
 F-71-R-7             190,000        245,974              0                 0
 F-71-R-8             240,000        259,884              0                 0
 F-74-D-6           1,187,000      1,571,747        262,210*                0
 F-74-D-7           1,000,000        719,417              0                 0
 F-82-D-1             114,000        100,484              0                 0
 F-83-D-1             300,000        266,074              0                 0
 F-84-D-1             180,000        284,287              0                 0
 F-85-D-1             475,000        252,052              0                 0
 F-86-D-1             120,000         43,409              0                 0

     Total       $17,411,246     $16,775,730       $262,210         $220,197
_______________
*Sufficient excess costs were claimed to offset questioned/unsupported costs.




                                        9
                                                                                      Appendix 2

                               MANAGEMENT ISSUES

       The working papers identified two management issues that the Commonwealth of
Pennsylvania Fish and Boat Commission and the Fish and Wildlife Service need to address as
follows:

A. License Certification

        The working papers indicated that the Commission should use more current information
as a basis to certify the accuracy of its reported numbers of fishing license holders. The Code of
Federal Regulations (50 CFR 80.10(a)) states that information concerning the number of persons
holding paid licenses to fish for sport and recreation in the preceding year shall be furnished
upon the request of FWS. The number of license holders is one of the factors used by FWS to
determine the Federal Aid apportionment of Federal Aid Restoration funds. The Commission
used 1995 license holder data for the 1997 certification. It was also noted in the working papers
that the Commission used an actuarial factor taken from the “Lifetable for the Total Population
of Pennsylvania” based on the 1980 U.S. Public Health Service census data, although the
Commission had data from the 1990 census. Using old data may affect the accuracy of the
reported number of license holders and the subsequent apportionment process. The Commission
should use the most current information available to make its certification.

B. Limitation on Administrative Costs

        The Code of Federal Regulations (50 CFR 80.15(d)) states, “Administrative costs in the
form of overhead or indirect costs for State central services outside of the state fish and wildlife
agency must be in accord with an approved cost allocation plan and shall not exceed in any one
fiscal year three percentum of the annual apportionment.”

        The working papers show that the auditors compared the amount of statewide central
services costs included in the Commission’s indirect cost proposals for fiscal years 1996 and
1997 to three percent of the State’s fiscal year 1996 and 1997 annual apportionment and found
that the limitation was exceeded by $61,304 in fiscal year 1997. The auditors did not quantify the
effect on Federal Aid grants. In the future, the Commission needs to ensure that the amount of
the statewide central service costs included in the Commission’s indirect cost pool is limited to 3
percent of its annual apportionment for fish restoration.




                                                 10
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
